LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 20, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-1067: NEAL N. BROWDER, CITY OF SAN DIEGO, AND SHELLEY ZIMMERMAN V.
S.R. NEHAD, K.R. NEHAD, AND ESTATE OF FRIDOON RAWSHAN NEHAD
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Reply to Opposition
to Petition for a Writ of Certiorari referenced above contains 2,998 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 20th day of July 2020.

